"Review of Administrative Costs Included in the Adjusted Community
Rate Proposal for a Missouri Medicare+Choice Organization,"(A-07-00-00114)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Administrative Costs Included in the Adjusted Community Rate
Proposal for a Missouri Medicare+Choice Organization," (A-07-00-00114)
July 12, 2001
Complete
Text of Report is available in PDF format (648 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Unlike other areas of the Medicare program, there is no statutory or regulatory
authority governing the allowability of costs in determining adjusted community
rates (ACRs) for Medicare+Choice organizations (M+CO).  This review of
a Missouri M+CO was made to determine if the administrative costs were reasonable,
necessary, and allocable when compared to Medicare's general principle of paying
only reasonable costs.  We found, however that the ACR included $151,049
for the costs of promotional giveaways, donations, sponsorships, lobbying,
and entertainment.  The results of this review, along with the results
of similar reviews of other M+CO organizations are being shared with the Centers
for Medicare and Medicaid Services so that appropriate legislative changes
can be considered.